               U.S. Department of Commerce
                   Office of Inspector General



Semiannual Report to Congress

                                  March 2014
OFFICE OF
INSPECTOR GENERAL




                                                  Inspector General                   Office of Counsel




                                                       Deputy
                                                  Inspector General




                        Office of                  Office of Audit                          Office of
                      Administration               and Evaluation                        Investigations




Oversight Areas                                              OIG Main Number
Office of the Secretary                                      Inspector General. . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.4661
Bureau of Economic Analysis
                                                             OIG Hotline
Bureau of Industry and Security
                                                             Telephone. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.2495
Economic Development Administration                                                                                                 or 800.424.5197
Economics and Statistics Administration
International Trade Administration                           TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
Minority Business Development Agency                                                                                                     or 800.854.8407
National Institute of Standards and Technology
                                                             E-mail. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .hotline@oig.doc.gov
National Oceanic and Atmospheric Administration
National Technical Information Service
                                                             More Information
National Telecommunications and                              Visit www.oig.doc.gov to learn more about our
   Information Administration                                activities and subscribe to our RSS feed for website
U.S. Census Bureau                                           updates. We are also on Facebook and Twitter.
U.S. Patent and Trademark Office                             E-mail website comments to oigweb@oig.doc.gov.
               U.S. Department of Commerce
                   Office of Inspector General



Semiannual Report to Congress

                                  March 2014
d                 Office of Inspector General | Semiannual Report to Congress | March 2014




    TABLE OF 

    CONTENTS




    01 FROM THE INSPECTOR GENERAL
    02 TOP MANAGEMENT CHALLENGES FACING THE DEPARTMENT
    10 OVERSIGHT AREAS

    10 DEPARTMENT-WIDE MANAGEMENT

    18 ECONOMIC DEVELOPMENT ADMINISTRATION

    20 ECONOMICS AND STATISTICS ADMINISTRATION

    22 NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    26 NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    30 UNITED STATES PATENT AND TRADEMARK OFFICE

    32 AMERICAN RECOVERY AND REINVESTMENT ACT

    36   WORK IN PROGRESS
    40   STATISTICAL DATA
    50   REPORTING REQUIREMENTS
    52   ACRONYMS AND ABBREVIATIONS
                                                                                          1




FROM THE
INSPECTOR GENERAL


I am pleased to present the Department of Commerce Office of Inspector General’s
Semiannual Report to Congress for the 6 months ending March 31, 2014.

This report summarizes work we initiated and completed during this semiannual
period on a number of critical departmental activities. Over the past 6 months, our
office issued 13 audits, inspections, and responses to Congressional requests
addressing programs carried out by the Economics and Statistics Administration,
National Institute of Standards and Technology, National Telecommunications and
Information Administration, National Oceanic and Atmospheric Administration,
U.S. Patent and Trademark Office, and the Department itself.

In November 2013, we issued our annual report identifying what we consider
from our oversight perspective to be the top management challenges facing the
Department in fiscal year 2014, a summary of which appears on page 2. We will
continue to work closely with the Department and with Congress to meet these and
other challenges facing Commerce, especially as it tackles the ambitious strategies
and initiatives outlined in America Is Open for Business, its strategic plan for fiscal
years 2014–2018.

We thank Secretary Pritzker, senior officials throughout the Department, and members
of Congress and their staffs for their support of our work and for their receptiveness
to our recommendations to improve Commerce programs and operations.




TODD J. ZINSER

2   Office of Inspector General | Semiannual Report to Congress | March 2014




    TOP MANAGEMENT
    CHALLENGES FACING
    THE DEPARTMENT

    The Reports Consolidation Act of 2000 requires inspectors general to identify
    the top management challenges facing their departments. In November 2013,
    the Department of Commerce OIG identified five challenges that require
    significant Departmental attention in FY 2014 and beyond.



    1. STRENGTHEN COMMERCE INFRASTRUCTURE TO SUPPORT THE NATION’S
       ECONOMIC GROWTH

    As reflected in the President’s FY 2014 proposed budget, the Department is a key player in the
    federal government’s efforts to stimulate economic growth and job creation. Four bureaus that
    hold pivotal roles in providing the infrastructure for economic growth—the International Trade
    Administration (ITA), the Bureau of Industry and Security (BIS), the U.S. Patent and Trademark
    Office (USPTO), and the National Telecommunications and Information Administration (NTIA)—
    face a variety of challenges.

    Promoting U.S. Exports While Protecting National Security Interests. Promotion and
    regulation of U.S. exports are two critical missions of the Department. With the approved FY 2014
    budget, the Department received $470 million for export promotion (ITA) and $101.5 million for
    export regulation (BIS). ITA’s U.S. and Foreign Commercial Service provides a broad range of
    services and counseling to U.S. exporters while other ITA business units enforce trade agreements
    and protect domestic industries such as manufacturing and textiles.

    ITA plays a leading role as one of 16 executive departments and federal agencies that support
    the National Export Initiative (NEI), which was formalized by executive order in March 2010.
    The NEI aims to double 2009 U.S. export levels by the end of 2014 and, in turn, help grow
    the nation’s $17 trillion economy. To support many of its priorities, the NEI called for enhanced
    collaboration among federal trade agencies and strategic partnerships with state, local, and
    other trade organizations. In our 2012 review of the U.S. Export Assistance Centers we noted
    that—while protections of client data inhibited information sharing and guidance on collaboration
    was limited—fostering partnerships with other federal agencies such as the Small Business
    Administration and the Export–Import Bank can enhance service to exporters. In FY 2014, ITA will
    be challenged to improve and build on the coordination and partnership efforts developed to date.

    BIS programs ensure that trade in dual-use exports is consistent with national security interests.
    Future trade in controlled dual-use exports is expected to increase significantly as a result of the
    current Export Control Reform Initiative. Launched by the Administration in 2010, the initiative
    aims to streamline the country’s export control system and facilitate U.S. export of high-tech
    goods while protecting U.S. national security interests. Beginning October 15, 2013, new rules
    transferred the first of many items from the U.S. Munitions List to the Commerce Control List
    in a process expected to continue throughout FY 2014. To address the increase of licensable
    items under its jurisdiction, BIS has requested additional resources in its FY 2014 budget for its
    licensing and enforcement units. To complete its mission, BIS’ challenge is to coordinate with its
    federal partners, such as the Departments of Defense and State, to revise federal export control
    regulations to effectively implement export control reform.
                                                              Top Management Challenges Facing the Department   3




Enhancing Economic Growth Through Intellectual Property and Wireless Initiatives.
USPTO, in its mission to foster innovation through high-quality patent and trademark examination,
must implement several remaining provisions of the 2011 America Invents Act (AIA) and faces
several difficulties in reducing backlogs associated with initial patent applications, requests for
continued examination, and appeals. The agency’s recent efforts to address its application and
appeal backlogs and related pendency issues have yielded mixed results. Both the backlog and
pendency for patent applications decreased in FY 2013. The patent appeals backlog, which we
reported on in our 2012 audit, has stabilized—yet, as of May 2013, still stood at more than twice
the size of the backlog in October 2010. However, USPTO’s backlog for requests for continued
examination (RCE) has grown from 17,800 applications in October 2009 to approximately
78,000 in September 2013, an increase of more than 340 percent. As a consequence, during
the same period, the average waiting time between filing an RCE and receiving an initial decision
has grown from 2.1 to 7.8 months. In June 2013, OIG initiated an audit to evaluate the reason for
the increase in the RCE backlog and review USPTO’s efforts to address the issue. As it works
to reduce its patent backlog and pendency, USPTO’s challenge is to ensure that the quality of its
patent examination process is not adversely affected and to avoid requiring applicants and the
public to file unnecessary and costly challenges to examiners’ decisions.

Due to the increase in spectrum demand and the limitations of available spectrum capacity, NTIA
must increase spectrum access for commercial wireless broadband use—via sharing between
federal and commercial users or sale of spectrum for commercial use—while protecting federal
missions and overseeing development of a broadband network for public safety.

In June 2010, the President directed that 500 megahertz (MHz) of federal or nonfederal spectrum
be freed up for commercial wireless broadband. In response, NTIA announced in March 2012
that the federal government intends to repurpose 95 MHz of prime spectrum for commercial use.
However, the $18 billion that NTIA estimates it will cost to relocate existing federal users to other
parts of the spectrum could make this cost prohibitive. Recent technology advances will make
such shared-use architecture feasible in the near future. However, many challenges—such as
lack of incentive for commercial providers to bid for shared spectrum (i.e., the cooperative use
of common spectrum by accessing the same frequencies in different geographical areas or at
different times), revenue generation, and rights-of-use issues—must be addressed to make this
effort a possibility.

The February 2012 Middle Class Tax Relief and Job Creation Act allocated some existing
public safety radio frequency spectrum, along with the D-Block spectrum, and authorized
$7 billion in funding for the establishment of an interoperable Nationwide Public Safety Broadband
Network (NPSBN). The law established the First Responder Network Authority (FirstNet) as an
independent authority within NTIA. The law requires FirstNet to oversee the existing public-safety
spectrum and the establishment and deployment of the NPSBN. FirstNet faces several challenges
in establishing the NPSBN, including (1) fostering cooperation among various state and local
public-safety agencies, (2) integration of seven Broadband Technology Opportunities Program
(BTOP) grants funded by the American Recovery and Reinvestment Act of 2009 into the NPSBN,
and (3) the physical construction of a nationwide long-term evolution network.

2. STRENGTHEN OVERSIGHT OF NOAA PROGRAMS TO MITIGATE POTENTIAL
   SATELLITE COVERAGE GAPS, ADDRESS CONTROL WEAKNESSES IN
   ACCOUNTING FOR SATELLITES, AND ENHANCE FISHERIES MANAGEMENT

NOAA plays a critical role in protecting life and property, as well as supporting national economic
vitality. To achieve these missions, NOAA must overcome the challenges associated with the
acquisition, accounting, and operation of weather satellites and has to balance the competing
interests concerning marine fisheries.
4   Office of Inspector General | Semiannual Report to Congress | March 2014




    Enhancing Weather Satellite Development and Mitigating Coverage Gaps. Cost
    increases and budget shortfalls may delay the development and launch of two of NOAA’s
    most vital environmental satellite systems. The Joint Polar Satellite System (JPSS) and the
    Geostationary Operational Environmental Satellite-R Series (GOES-R) are the Department’s
    largest investments, accounting for more than 20 percent of its 2014 budget request. These
    environmental satellites are essential components in weather forecasting: they provide data used
    to track severe storms and predict climate. However, long-standing cost overruns and schedule
    delays—as well as the aging of the current constellation of satellites—are threatening adequate
    coverage of these critical functions.

    Strong program management and close oversight of these programs are needed to reduce
    risks associated with their development. The JPSS program must successfully execute to cost,
    schedule, and performance baselines established August 1, 2013. The program must also ensure
    that its flight and ground segments’ schedules are fully integrated. JPSS must also effectively
    coordinate with the newly established NOAA Polar Free Flyer program, the planned NASA climate
    instrument project, and NOAA’s data distribution and archive systems. Over the course of the
    JPSS program, we have analyzed the schedules of the JPSS predecessor Suomi National Polar-
    orbiting Partnership (Suomi NPP) and JPSS, to assess potential gaps in weather forecast data.
    Consistent with our September 2012 JPSS audit report, we continue to project a 10–16-month
    gap between the Suomi NPP’s end of design life and when JPSS-1 satellite data become
    available for operational use. NOAA’s medium-range weather forecasting (3–7 days) could be
    significantly degraded during the period of time JPSS data are unavailable.

    The GOES-R program must continue to manage its development to meet requirements within its
    long-standing baselines. The program also needs to ensure sufficient ground system, instrument,
    and spacecraft development maturity to enter and successfully complete the integration and
    test phase. In addition, the program must effectively manage activities between flight and
    ground projects in a compressed development schedule and constrained budget environment.
    In our 2013 GOES-R audit report, we found that schedule slips and a potential reduction in
    testing activities have raised concerns about the satellite’s readiness to launch. NOAA needs to
    implement a comprehensive plan to mitigate the risk of potential launch delays and communicate
    to users (e.g., in the National Weather Service and Department of Defense) and other
    stakeholders (e.g., the Administration, Congress) the changes that may be necessary to maintain
    GOES-R’s launch readiness date.

    Addressing Material Weakness over Satellite Accounting. During FY 2012, the accounting
    firm KPMG noted several material control weaknesses at NOAA related to accounting for
    satellites—which, as of the end of FY 2012, totaled more than $6 billion (or approximately more
    than one-fifth of the Department’s assets). NOAA’s accounting for satellites is highly complex;
    challenges have resulted in material deficiencies in NOAA’s satellite accounting during FY 2012.
    Specifically, KPMG identified the incorrect classification of a satellite ground system, unrecorded
    transfer of a satellite from another federal agency, and corrections to the satellite impairment
    amount. These errors resulted in approximately $900 million in adjustments to correct the amount
    of satellites included in NOAA’s accounting records. In addition, KPMG identified uncapitalizable
    costs included in construction work-in-progress, as well as a lack of documentation evidencing
    review and approval of intragovernmental payments related to satellites. Program and finance
    officials must work together to ensure that satellite investments are accurately identified, recorded,
    and reported—a basic principle of asset management.

    Enhancing Fisheries Management. In 2011, commercial fishing accounted for approximately
    1 million jobs and recreational fishing accounted for 327,000 jobs. U.S. fishermen at ports in
    the 50 states brought in 9.9 billion pounds of fish valued at $5.3 billion in 2011—an increase
    of 1.63 billion pounds (up 19.7 percent) and $769 million (up 17 percent) compared to 2010.
    Fishing is an important industry in our nation’s economy as a whole and in the many coastal
                                                             Top Management Challenges Facing the Department   5




communities and port towns. However, NOAA—as part of its mission—also considers the health
of our oceans and coastal ecosystems, which are impacted by coastal development, pollution,
and the destructive impact of invasive species. For several years, we have reported on NOAA’s
challenges in balancing two competing interests: promoting commercial and recreational fishing
as vital elements of our national economy and preserving populations of fish and other marine life.

Considering the importance of fisheries to the U.S. economy, it is critical that NOAA and the
fishery management councils balance the interests of the fishing community with conservation
concerns. Regardless of long-term sustainability and conservation concerns, many stakeholders
claim that measures such as limiting catch in fisheries and enforcing limited access privilege
programs have had a negative impact on some local fishing communities. NOAA’s challenge is to
effectively balance those interests—and effectively communicate to stakeholders how the agency’s
efforts serve the long-term economic interests of the fishing industry.

3. CONTINUE ENHANCING CYBERSECURITY AND MANAGEMENT OF INFORMATION
   TECHNOLOGY INVESTMENTS

The administration has identified cybersecurity as among the most serious economic and national
security challenges we face. To bolster the national cybersecurity program, federal agencies have
been asked to implement cross-agency cybersecurity priorities—including strong authentication,
Trusted Internet Connections (TIC), and continuous monitoring.

We reported our concerns about the Department’s fragmented information technology (IT)
governance in previous years. In response to Office of Management and Budget (OMB) direction,
the Acting Secretary issued a June 2012 memorandum that described a strategy to strengthen
the Department’s Chief Information Officer’s (CIO’s) ability to oversee the bureaus’ annual
$2.5 billion IT investments. The CIO has leveraged this increased authority to lead the effort to
consolidate commodity IT Department-wide—and continues to strengthen IT oversight through the
Commerce IT Review Board. However, the CIO’s responsibility to oversee satellite IT investments
has been diminished, and IT investments still need to close the gap between planned and actual
schedule and cost performance.

Establishing a Robust Capability to Respond to Cyber Incidents. Our June 2013 review
of a perceived massive malware infection at the Economic Development Administration also
highlighted challenges for the Department when responding to a cyber incident. We made
recommendations to improve the Department’s Computer Incident Response Team (DOC CIRT),
which provides response services to the seven bureaus located in the Department’s headquarters
at the Herbert C. Hoover Building (HCHB). To deal successfully with cyber threats, the
Department needs to establish a robust incident response capability at DOC CIRT. Furthermore,
because DOC CIRT primarily provides incident response services to bureaus located at HCHB,
ensuring productive collaboration among all bureaus is critical for the Department to effectively
respond to a cyber event. This includes bureaus that have their own CIRT capabilities, such as
the Census Bureau, the International Trade Administration, the National Institute of Standards
and Technology, the National Oceanic and Atmospheric Administration, and the U.S. Patent and
Trademark Office. OIG is currently conducting an audit of the incident detection and response
capabilities of several bureaus within the Department.

Continuing Sustainable Implementation of Enterprise Cybersecurity Initiatives. The
Department has three enterprise cybersecurity initiatives underway to address mandates from
OMB. The Enterprise Cybersecurity Monitoring and Operations and Enterprise Security Oversight
Center initiatives support OMB’s mandate to continuously monitor security-related information
from across the enterprise. The TIC initiative supports the mandate that federal agencies
optimize and standardize their individual external network connections, including connections
to the Internet. Collectively, these undertakings should significantly improve the Department’s
6   Office of Inspector General | Semiannual Report to Congress | March 2014




    cybersecurity posture. The Department needs to ensure that current efforts for these initiatives
    move forward as planned and that operating units cooperate and participate to the fullest extent.

    Preserving the CIO’s Oversight Responsibility of Satellite-Related IT Investments.
    OMB has directed agencies to expand federal CIO responsibility from a traditional role of
    policymaking and infrastructure maintenance to managing the agency’s entire major IT investment
    portfolio. However, the CIO oversaw about a quarter fewer IT investments in FY 2013 than in
    FY 2012. In particular, in an effort to streamline oversight, the Department has waived the
    requirement to follow CIO oversight practices for six satellite-related investments totaling
    $642 million in FY 2013 spending. In particular, four satellite-related investments—the
    maintenance and enhancement of two satellite ground systems and two satellite data processing
    and distribution systems—do not receive as much oversight as the JPSS and GOES-R programs.
    Although the Department has established quarterly reviews for executives to discuss high-level
    investment issues, the reviews do not replace the CIO’s in-depth tracking and evaluation of these
    satellite investments. The Department should reinstate the CIO oversight process for these
    four investments.

    Continuing Vigilant Oversight of IT Investments. We remain concerned, as we reported last
    year, about IT investments with a history of being high-risk. For example, in December 2010, the
    Department’s CIO assessed one National Weather Service (NWS) investment and designated it a
    high-risk project. In that same year, OMB designated a Bureau of Industry and Security system as a
    high-risk Departmental project. Although both investments have made some progress since 2010,
    the former is still assessed as a high-risk investment and the latter recently ran into significant
    development roadblocks and was again evaluated high-risk in FY 2013. Both investments now
    require re-planning to move forward. The challenge for Departmental IT investment oversight
    is to identify the fundamental reasons that high-risk projects continue not to make adequate
    progress; implement necessary changes to their acquisition approach, management structure,
    and development plans; and, if necessary, bring in outside expertise to identify weaknesses and
    recommend mitigation actions.

    Maintaining Momentum in Consolidating Commodity IT to Cut Costs. The Department’s
    CIO is leading the effort to reduce commodity IT costs per full-time equivalent by about
    25 percent annually to be more in line with costs at comparable agencies. Departmental and
    bureau CIOs are employing three basic approaches to break down costly and inefficient IT:
    (1) consolidating infrastructure, (2) sharing procurement vehicles to leverage economies of scale,
    and (3) hosting services for other Department bureaus. Department and bureau heads must
    ensure that their respective CIOs continue to have full cooperation in overcoming bureaucratic
    impediments to consolidating and sharing IT commodity resources.

    4. EXERCISE STRONG PROJECT MANAGEMENT CONTROLS OVER 2020 CENSUS
       PLANNING TO CONTAIN COSTS

    The Census Bureau has promised bold design changes for the 2020 Census, seeking to reduce
    per household costs (on an inflation-adjusted basis) to an amount lower than the 2010 Census.
    To reach this goal, the Bureau must complete research and testing early enough in the decade to
    plan and build the necessary infrastructure for the projected workload and workforce. The Bureau
    will be making key 2020 Census design decisions during FYs 2015–16 that drive the program’s
    methodology, quality, and cost. As a result of our 2010 Census oversight, we noted challenges
    the Census Bureau faces to innovate its 2020 Census design. Overcoming these challenges calls
    for fundamental improvements in decennial planning, management, testing, and transparency, to
    help ensure that the missed opportunities of previous decades are not repeated in 2020.

    Ensuring Timely Design Decision Making. The Census Bureau is approaching critical
    2020 Census design decision points that require planning and developing a decennial census in
    a significantly more constrained budget environment than experienced during the 2010 Census.
                                                             Top Management Challenges Facing the Department   7




Soon, the Bureau must rapidly analyze 2020 decennial design alternatives and make key design
decisions based on the results of its research and testing phase. Our office has conducted several
reviews of the Census Bureau’s approach and progress toward the planning and development of
a new cost-effective 2020 decennial design (e.g., research and testing programs). We found that,
as research and testing continues, the Bureau must contend with and plan for several challenges
that could adversely impact the next decennial census.

Focusing on Human Capital Management, Timely Research, and Testing Implementation.
During our December 2013 evaluation of 2020 Census redesign efforts, we noted significant
schedule slippage in the Census Bureau’s key research and testing programs. If continued,
missed deadlines will translate into an untenable continuation of an already expensive design.
The cost (in constant dollars) of counting each housing unit could reach $151, compared with
$97 for 2010. Through our ongoing work on the Bureau’s approach to and progress on planning
for 2020 decennial census we have identified three time-sensitive Bureau management priorities:
managing human capital to align with the Bureau’s mission and programmatic goals; completing
timely research for making evidence-based design decisions; and implementing a stable, agile
field-testing strategy.

5. CONTINUE TO FOSTER A CULTURE OF MANAGEMENT ACCOUNTABILITY TO
   ENSURE RESPONSIBLE SPENDING

As the government experiences an extended period of tightened budgets, it is imperative to foster
a culture of management accountability. OIG’s determination to audit, investigate, or provide
hotline complaint information to Departmental or bureau management for appropriate action
helps to instill a culture of ethical conduct and ensure that spending is appropriate, complies with
laws and regulations, and promotes investments with long-term benefits. The increasing number
of hotline complaints related to the use of appropriated funds by NOAA, as well as complaints
about other bureaus, highlights the Department’s need to implement stricter control over funds
Department-wide. The Department and most of its bureaus use outdated financial management
systems that impede the Department’s ability to oversee and manage Department-wide financial
activities. Plans to replace the legacy systems by FY 2018 face significant challenges. Regarding
its annual acquisitions, the Department reported it exceeded its goals in reducing the dollar
amount of high-risk contracts, per 2009 OMB guidance. However, our audits indicate that
reducing the use of several types of high risk contracts remains a critical challenge. Finally, the
potential misuse of federal funds by award recipients requires stronger oversight of Departmental
programs that award grants or cooperative agreements.

Responding to Concerns of Mismanagement and Ethical Violations. OIG operates
a hotline for reporting information about alleged wrongdoing, misconduct, waste, or
mismanagement. Some hotline complaints become the basis of OIG audits and investigations.
Complaints that detail management issues are provided promptly to Departmental and bureau
leadership for inquiry and action. Over the past year, bureaus have worked closely with OIG to
look into and resolve many management issues raised through OIG’s hotline. Timely and thorough
action to resolve these issues helps to create a culture of compliance and accountability in the
Department. While the Department’s management has increased its capacity and ability to deal
with hotline complaints, employees and members of the public have provided an increasing
volume of complaints to OIG. In order to continue managing potential issues and resolving
problems, Departmental management must remain vigilant in its efforts to seriously look into and
address hotline complaints.

Implementing Stricter Controls over Funds. In response to hotline complaints about
mismanagement of appropriated funds within NOAA NWS in 2010 and 2011, the Department
conducted a May 2012 review—and the then-Deputy Secretary and then-Under Secretary of
Commerce for Oceans and Atmosphere issued separate decision memorandums in the same
8   Office of Inspector General | Semiannual Report to Congress | March 2014




    month. Their memorandums required a total of 20 specific actions for correcting the conditions
    that led to the report’s findings. In our September 2013 review of these actions, we found that the
    Department and NOAA have taken steps to address the findings identified in the Department’s
    internal inquiry and completed many action items, but additional work is needed to complete
    several key action plan items and ensure proper stewardship of funds and compliance with laws
    and regulations. Continued Departmental leadership attention is essential to ensuring a culture of
    transparency, accountability, and effective oversight.

    Modernizing the Enterprise Financial Management System to Strengthen Financial
    Oversight. A lack of centralized data systems poses reporting and oversight challenges to the
    Department, such as effectively reporting financial data and monitoring financial activity across its
    bureaus. The Department and most of its bureaus use a financial system developed with aging
    technology and augmented with in-house software increasingly difficult to maintain. Limitations
    such as high support costs and a lack of system integration and lack of centralized reporting
    capability impede the Department’s ability to oversee and manage Department-wide financial
    activities. The Department plans to replace these legacy systems—collectively known as the
    Commerce Business System—with Business Application Solutions, a commercially available
    system, by FY 2018. While the Department has provided OIG with regular updates on the status
    of this modernization project, significant challenges remain.

    Strengthening Controls over High-Risk Contract Actions and Developing the
    Acquisition Workforce. In FY 2012, the Department obligated about $2.4 billion for goods
    and services that include satellite acquisitions, intellectual property protection, broadband
    technology opportunities, management of coastal and ocean resources, information technology,
    and construction and facilities management. Although the Department’s requirements have not
    diminished, available funding resources likely will. Continuing to address high-risk contracts and
    maintaining a qualified acquisition workforce will enable better management of the Department’s
    day-to-day spending.

    Addressing Grant Management Issues. OIG also provides oversight of the Department’s
    management of more than 70 programs authorized to award grants or cooperative agreements.
    Annually, we review an average of 340 reports with findings; of those, about 6 percent will have
    significant procedural or internal control findings. Grant oversight requires that recipients of
    awards meeting certain dollar thresholds submit either a single audit report or a program-specific
    audit report. These types of awards pose particular oversight challenges for the Department. OIG
    continues to review these audit reports to identify trends in findings across bureau programs, as
    well as to monitor whether findings are resolved in a timely manner.

    With approximately $3.8 billion in grant awards, the Broadband Technology Opportunities
    Program (BTOP)—funded by the Recovery Act—represents the Department’s largest grant
    program. Management must remain committed to monitoring BTOP recipient compliance with
    grant award terms and achievement of intended benefits. Awards for which the grantee has
    requested extensions to complete projects merit close attention. As grant awards end, the audit
    closeout process—how the award recipient and the grants office ensure that project activity is
    complete and the award recipient has met all the requirements under applicable laws, regulations,
    OMB circulars, and award terms and conditions—calls for particular attention.
10   Office of Inspector General | Semiannual Report to Congress | March 2014




     DEPARTMENT-WIDE MANAGEMENT




     The U.S. Department of Commerce works to help American
     companies become more innovative and successful at home and more
     competitive abroad. It creates the conditions for economic growth and
     opportunity by promoting innovation, entrepreneurship, competitiveness,
     and stewardship.

     The Department accomplishes its mission by providing national and
     local weather services; developing key economic and demographic data
     (including the decennial census); advancing technological and scientific
     innovation; protecting and restoring environmental resources; promoting
     international trade; and supporting local, regional, and national economic
     development. These activities affect U.S. business and industry daily and
     play a critical role in the nation’s economic well-being.
                                                                              Department-Wide Management                         11




COMPLETED WORKS (BY OVERSIGHT AREA)

During this reporting period, OIG completed 13 audits, inspections, and responses to
Congressional requests.




         6




                           2             2
                                                          1             1                    1

   Department­wide       USPTO          NTIA             ESA           NIST                NOAA




THE DEPARTMENT’S AWARDING AND ADMINISTERING
OF TIME-AND-MATERIALS AND LABOR-HOURS
                                                                         Time-and-Materials and Labor-Hour
CONTRACTS NEEDS IMPROVEMENT (OIG-14-001-A)
                                                                         (T&M/LH) Contracts
For FYs 2009–2011, the Department awarded 1,383 time­
and-materials (T&M) and labor-hour (LH) contracts, with a total          These contract types require contractors to provide
obligated value of approximately $1.3 billion. In our Department-        their best effort, up to a maximum number of hours
wide audit, we reviewed 43 contracts composed of 62 various              authorized. Each hour of work authorizes a contractor to
T&M/LH contract actions to determine whether NOAA, the                   charge the government an established labor rate, which
Census Bureau, and NIST properly awarded and administered                includes profit. T&M/LH contracts are considered high
these contract actions.                                                  risk because the government assumes the risk for cost
                                                                         overruns.
We determined that contracting and program officials did not
properly award and administer T&M/LH contracts and task                  Because of this high risk, the Federal Acquisition
orders for work performed. These conditions occurred because             Regulation (FAR) requires appropriate government
contracting and program officials did not follow Federal Acquisition     monitoring of contractor performance for reasonable
Regulation and the Commerce Acquisition Manual for awarding              assurance of efficient methods and effective cost
and administering T&M/LH contract actions, specifically regarding        controls. Further, FAR directs that T&M/LH contracts
contract and task order award procedures and contract oversight          may only be used when it is not possible at the time of
procedures. Our findings include potential monetary benefits to the      award to estimate accurately the extent or duration of the
Department—in the form of unsupported costs and funds put to             work or to anticipate costs with any reasonable degree
better use—totaling more than $170 million.                              of confidence.


Further, we found that

•	 The Department’s volume of T&M/LH contracts was unclear because bureaus’ reported data
   and maintained records on T&M/LH contracts were inaccurate and incomplete.

•	 Contract files were missing or lack key contract documentation.

•	 Funds on completed T&M/LH contracts were not always deobligated.
12   Office of Inspector General | Semiannual Report to Congress | March 2014




     We recommended that the Director of Acquisition Management

     •	 Include a review of T&M/LH contracts, as part of the Department’s annual acquisition
        management reviews, for (a) proper determination and findings, (b) documented changes in
        established ceiling prices, (c) quality assurance surveillance plans to document contractor
        performance, and (d) verified contractor invoices with supporting documentation.

     •	 Monitor and evaluate the use and management of T&M/LH contracts through the acquisition
        review board and investment review board processes.

     •	 Improve the process for entering accurate and complete data into FPDS-NG.

     •	 Improve controls to properly maintain and safeguard contract files.

     LETTER TO BICAMERAL TASK FORCE ON CLIMATE CHANGE RE: REVIEW
     OF COMMERCE DEPARTMENT’S CLIMATE CHANGE-RELATED POLICIES,
     ENVIRONMENTAL PROGRAMS, AND ACTIVITIES (OIG-14-004-M)

     In December 2013, the Inspector General responded to a February 2013 request from the
     Bicameral Task Force on Climate Change to review the Department’s policies, environmental
     programs, and activities to carry out requirements that federal agencies address climate change.

     Overall, we found that Commerce views federal sustainability directives and the pursuit of a robust
     sustainability policy as central to the Department’s core values and mission. The Commerce
     Strategic Sustainability Performance Plan, issued in June 2012, put forth a number of priorities
     and initiatives for Commerce. Among these are

     •	 adding six sustainable buildings to its real property portfolio.

     •	 ensuring at least 5 percent of the Department’s electricity comes from renewable energy.

     •	 continuing to right-size its vehicle fleet.

     •	 empowering employees to approach energy-conservation challenges creatively through energy
        working groups, employee “Green Teams,” and energy-awareness campaigns.

     •	 continuing to implement EPA’s Energy Star® Portfolio Manager to track energy usage and
        overall building performance across Commerce facilities.

     Despite notable initiatives undertaken by the Department in response to congressional and
     executive directives, we had concerns about the completeness of sustainability data being
     reported. Even though the most recent OMB Sustainability and Energy Scorecard shows
     the Department to be on track for 3 of the 7 federal sustainability goals, not all bureaus
     provide complete data. Based on our discussions with the Office of Sustainable Energy and
     Environmental Programs (OSEEP) and NOAA, we determined that NOAA does not report
     accurate or complete information for the OMB Scorecard for reasons that include

     •	 historical records contain incomplete and estimated information.

     •	 NOAA headquarters staff are unable to compel the bureau’s operating units to comply with
        sustainability directives.

     •	 sustainability reporting is an additional duty beyond the typical work assignments for many
        NOAA staff members, which often results in inattention to implementation and reporting.
                                                                          Department-Wide Management   13




We recommended that the Deputy Assistant Secretary for Administration take action to improve the
Department’s sustainability performance and the accuracy and completeness of Commerce’s data
in order to identify ways to reduce emissions or strengthen resiliency throughout the Department.
14   Office of Inspector General | Semiannual Report to Congress | March 2014




     FY 2013 CONSOLIDATED FINANCIAL STATEMENTS AUDITS
     (OIG-14-006-A, OIG-14-007-A, OIG-14-009-A)

     KPMG LLP, an independent public accounting firm, performed the audit in accordance with U.S. 

     generally accepted government auditing standards and OMB Bulletin 14-02, Audit Requirements 

     for Federal Financial Statements. In its audit of the Department, KPMG determined that the 

     financial statements were fairly presented in all material respects and in conformity with U.S. 

     generally accepted accounting principles.


     KPMG identified two significant deficiencies in (a) internal control over financial reporting 

     related to accounting for NOAA’s property and (b) controls over information technology access, 

     configuration management, and segregation of duties. (A significant deficiency in internal control 

     exists when the design or operation of a control does not allow management or employees—in 

     the normal course of performing their assigned functions—to prevent or detect and correct 

     misstatements on a timely basis and merits attention by those charged with governance.)


     Specifically, KPMG found that accounting for NOAA property needs improvement. NOAA 

     made improvements in its satellite accounting during FY 2013 including the formation of a 

     Satellite Accounting Review Board to identify and deliberate on complex accounting issues 

     regarding satellites. Despite those improvements, KPMG identified control deficiencies related 

     to accounting for property other than satellites, such as unclear policies, timeliness issues, and 

     enforcement issues. In addition, KPMG identified areas for improvement related to the consistent 

     application of accounting standards for accounting for satellites. Because of these matters, NOAA 

     needs to continue making improvements to effectively account for its property, including satellites. 


     IT access, configuration management, and segregation of duties controls also need improvement. 

     While KPMG noted some progress towards remediating prior year control deficiencies during 

     FY 2013, it identified control deficiencies relating to systems access, configuration management, 

     and segregation of duties that require management’s attention. Despite the progress made by the 

     Department, the Department needs to make improvements in its general IT controls to fully ensure 

     that financial data processed on the Department’s systems has integrity, is securely maintained, 

     and is available only to authorized users. 


     KPMG also reported that potential Antideficiency Act compliance matters at NOAA, the Census 

     Bureau, and the Department are under review. 


     It identified no instances in which the Department’s financial management systems did not 

     substantially comply with the requirements of the Federal Financial Management Improvement Act 

     of 1996. 


     KPMG also audited the Department’s closing package financial statements and determined 

     its compliance with financial reporting requirements in the Treasury Financial Manual. These 

     statements are used to assist in preparing the Financial Report of the U.S. Government. KPMG

     issued an unmodified opinion and reported no material weakness in internal control and no 

     instance of noncompliance.


     AUDITS OF COMMERCE FUND RECIPIENTS BY NONFEDERAL INDEPENDENT
     AUDITORS (REVIEWED BY OIG DURING THE 6 MONTHS ENDING MARCH 31, 2014)

     In addition to undergoing OIG-performed audits, certain recipients of Department of Commerce
     financial assistance or cost-reimbursable contracts are periodically examined by state and
     local government auditors and by independent public accountants. OMB Circular A-133
     establishes requirements for most of these audits. For-profit organizations audited in accordance
     with Government Auditing Standards include those that receive NIST awards from both the
     Technology Innovation Program and the Measurement and Engineering Research and Standards
                                                                                             Department-Wide Management   15




program. Some for-profit organizations are audited in accordance with other specific audit
guides. These include Advanced Technology Program awards that are audited in accordance with
the NIST Program-Specific Audit Guidelines for Advanced Technology Program Cooperative
Agreements, as well as BTOP awards that are audited in accordance with the NTIA Program-
Specific Audit Guidelines for the Broadband Technology Opportunities Program.

We examined 118 audit reports during this semiannual period to determine whether they
contained audit findings related to departmental programs. For 84 of these reports, the
Department acts as an oversight agency and monitors the audited entity’s compliance with OMB
Circular A-133, Government Auditing Standards, or program-specific reporting requirements. The
other 34 reports cover entities for which other federal agencies have oversight responsibility. We
identified 18 reports with material findings related to the Department.

Report Category                              OMB A-133 Audits                Program-Specific                   Total
                                                                                Audits

Pending Review (October 1, 2013)                      47                             9                               56
Received                                              78                            29                          107
Examined                                              84                            34                          118
Pending Review (March 31, 2014)                       41                             4                               45


The following table shows a breakdown by bureau of approximately $768 million in Department
funds audited through the A-133 or program-specific guidelines.


    Agency                                                                                            Funds Audited

    Economic Development Administration                                                                41,529,719
    Minority Business Development Administration                                                           262,939
    National Institute of Standards and Technologya                                                    42,629,740
    National Oceanic and Atmospheric Administration                                                    27,537,350
    National Telecommunications and Information Administrationb                                      579,096,516
    Multibureau                                                                                        76,533,637
    Total                                                                                             767,589,901
a   Includes $10,598,818 in program-specific audits; A-133 audits account for the remaining amount of $32,030,922.
b   Includes $401,160,183 in program-specific audits; A-133 audits account for the remaining amount of $177,936,333.


The audits identified a total of $2,598,627 in the federal share of questioned costs, $574,760
in federal unsupported costs and $152,000 in funds to be put to better use. In most reports,
the subject programs were not considered major programs; thus, the audits involved limited
transaction and compliance testing against laws, regulations, and grant terms and conditions. The
18 reports with material findings are listed in table 7-a on page 47.

DEPARTMENT MAKES PROGRESS ADDRESSING HOTLINE ISSUES

During the last reporting period, the Department continued to make progress dealing with issues
raised by whistleblowers and the public via OIG’s hotline. OIG refers hotline complaints from
employees and members of the public about ethics, compliance, or management issues to
operating unit leadership to address and resolve. This program ensures that information about
16   Office of Inspector General | Semiannual Report to Congress | March 2014




     potential risks is communicated promptly so that operating unit management can quickly address
     any problems. In some cases, OIG asks that operating units respond to us with a summary of
     their findings.

     Since the beginning of FY 2013, operating units have worked effectively to resolve hotline­
     referred issues, reducing by more than half what had become a major backlog in early FY 2013.
     As of March 31, 2014, the Department had only 40 hotline complaints for which OIG was
     awaiting an initial findings report—compared with 98 pending only 1 year prior. In FY 2013,
     OIG received almost 1,300 contacts over our hotline, of which about 600 were whistleblower
     complaints related to the Department’s programs and operations.

     As a result of the Department and operating units prioritizing and addressing OIG hotline referrals
     several issues have been resolved, resulting in better management practices and administrative
     remedies. In fact, of the hotline referrals resolved in FY 2013, the Department’s leadership found
     about one in four contained matters that were substantiated in their management inquiries.
     Even in cases where inquiries did not find issues, the process of looking into issues often helps
     communicate to staff that compliance and ethics issues are taken seriously.

     Complaint Referrals to Bureaus Awaiting Initial Response

     120




     100
                                                                                             Total pending hotline complaint referrals
                                                                                             Referrals older than 60 days without a
                                                                                             response to OIG at end of reporting period
      80




      60




      40




      20




       0
                 Q3            Q4             Q1             Q2              Q3       Q4                   Q1                  Q2
               (FY12)        (FY12)         (FY13)         (FY13)          (FY13)   (FY13)               (FY14)              (FY14)


     Source: OIG


     Although not all fall within this reporting period, examples of successfully resolved issues from
     OIG hotline referrals include the following:

     •	 In mid-2013, as the result of a whistleblower tip to OIG’s hotline, USPTO confirmed that an
        employee had been improperly claiming work time and overtime while on vacation in a foreign
        country. During the course of its inquiry, USPTO discovered that the employee had provided
        username and password information to a second USPTO employee, who logged into his
        account and submitted previously completed work while on leave. This gave management the
        impression that the employee was working while actually on vacation. Administrative action is
        pending against both.

     •	 In early FY 2013, OIG referred a whistleblower complaint to NTIA, which confirmed that a
        BTOP grantee had not paid employees appropriate wages as mandated by the Davis-Bacon
        Act. NTIA informed the grantee of the issue and appropriate action was taken to remunerate
        employees as required by the law.
                                                                             Department-Wide Management   17




•	 In late 2011, OIG received a whistleblower’s hotline complaint alleging that a Census Bureau
   employee was publishing political opinions while on duty. Census looked into the issues and,
   with additional support from OIG, uncovered evidence demonstrating that the employee had
   used Twitter to publish political opinions while at work. In 2012, we referred our file to the
   Office of Special Counsel (OSC), which has the authority to look into Hatch Act violations. In
   February 2014, OSC issued a press release announcing that it had confirmed the allegations
   and was concluding its investigation. The employee resigned prior to OSC concluding its case.

While the Office of the Secretary and most operating units have made progress handling OIG
hotline complaints, NOAA still faces challenges in this area. Leadership needs to give more timely
attention to resolving recommendations made at the conclusion of OIG investigations and its own
management reviews. When OIG or management substantiates allegations, we frequently transmit
to program management our concluding report, which may be accompanied by recommendations
to take appropriate administrative, disciplinary, or other policy actions. Departmental policy
requires operating units to respond to OIG within 60 days of receiving our report to inform
us of any actions that have been taken or that are planned. Improved coordination among the
Department’s Office of General Counsel, operating unit leadership, and human resources offices
would help ensure that appropriate action is executed in a timely manner.

FUNDS REMITTED TO THE GOVERNMENT IN FALSE CLAIMS CASE RELATED TO
BULLETPROOF VESTS

Early in the current reporting period OIG learned that, in June 2013, the trustee for Second
Chance Body Armor, Inc. (SCBA) remitted $384,429 to the government as a result of a prior
civil false claims settlement with the company. After filing for bankruptcy protections, SCBA’s
assets were placed into receivership with a trustee organizing the distribution of debts to SCBA’s
creditors. In July 2012, the court approved that $36.3 million be paid to the government to settle
claims brought as part of an investigation into the body armor industry’s use of Zylon ballistic
material in body armor. Prior to the latest money being transferred to the government, $3.6 million
had been transmitted. OIG is including the latest disbursement in the statistical appendix with an
asterisk, as the $36.3 million figure was reported in a prior period.

The companies manufactured and sold Zylon bulletproof vests despite possessing information
showing that the Zylon materials degraded quickly over time and were not suitable for ballistic
use. The SCBA vests were purchased by the federal government and by various state, local, and
tribal law enforcement agencies that were partially reimbursed by the United States under the
U.S. Department of Justice’s (DOJ’s) Bulletproof Vest Partnership Grant Program. This payout,
along with others reported in previous Semiannual Reports to Congress, was the result of a
joint investigation involving DOJ and investigative units from our office and eight other federal
departments and agencies. Our office coordinated with NIST scientists for expert support at
various phases of this investigation.
ECONOMIC DEVELOPMENT
ADMINISTRATION



The U.S. Economic Development Administration’s mission is to
lead the federal economic development agenda by promoting innovation
and competitiveness, preparing American regions for growth and
success in the worldwide economy. Its investment policy is designed
to establish a foundation for sustainable job growth and the building
of durable regional economies throughout the United States. This
foundation builds on two key economic drivers: innovation and regional
collaboration.
                                                                       Economic Development Administration   19




EDA CONTRACTOR DEBARRED AFTER VIOLATING THE BUY AMERICA ACT

In January 2013, we transmitted to EDA the findings from our investigation into allegations that an
entity supplying materials on a grant award violated the Buy America Act. Our investigation found
evidence that the owner of the contracting company falsely certified that products were made in
the United States, when they were actually made in China. By creating a fraudulent letter made to
appear as though it was on letterhead from an American manufacturer, the contracting company
owner created a false statement.

The cognizant U.S. Attorney’s Office declined to prosecute the matter, and we advised the
Department and EDA to work together to suspend and debar the contractor from engaging in
future business with the government. In December 2013, the Department notified the contractor
that he had been debarred from directly or indirectly benefiting from federal assistance programs
for a period of 3 years.
20   Office of Inspector General | Semiannual Report to Congress | March 2014




       ECONOMICS AND STATISTICS
       ADMINISTRATION



       The Economics and Statistics Administration analyzes economic
       activity, formulates policy options, and produces a major share of the
       U.S. government’s economic and demographic statistics. ESA has one
       constituent operating unit and two primary operating units.

       Office of the Chief Economist—Provides the Department with
       expertise on key economic forces affecting the U.S. economy,
       delivering timely, relevant, and credible economic analysis and advice to
       government leaders and the public.

       Census Bureau—Publishes a wide variety of statistical data about the
       nation’s people and economy, conducting approximately 200 annual
       surveys in addition to the decennial census of the U.S. population and
       the quinquennial census of industry.

       Bureau of Economic Analysis—Prepares, develops, and interprets
       national income and product accounts (summarized by the gross
       domestic product), as well as aggregate measures of international,
       regional, and state economic activity.
                                                                         Economics and Statistics Administration                       21




2020 CENSUS PLANNING: RESEARCH DELAYS AND PROGRAM MANAGEMENT
CHALLENGES THREATEN DESIGN INNOVATION (OIG-14-003-A)

Our audit objectives for reviewing the 2020 Census research program were to (1) assess the
implementation status of each individual project in the 2020 Census design effort, including the
extent of implementation, time frames for completion, milestones, deliverables, and impact on the
overall design program, (2) assess the bureau’s plans to evaluate each research project, including
whether accurate and reliable data will be available to determine each project’s impact on design
efforts, and (3) determine whether governance and internal controls are adequate to manage the
design effort.

We found that

•	 The current Census schedule shows research delays and lacks budget integration.

•	 Research quality assurance strategy is undeveloped.

•	 Program management plans incorporate best practices, but implementation is inconsistent.

We recommended that the director of the Census Bureau

•	 Determine when 2020 Census design decisions must be
   made; adhere to an activity schedule that aligns with those
   decision points; and develop a critical path for the 2020                   2020 Census
   Census R&T schedule. 

                                                                               Though several years away, the 2020 Census is a 

•	 Determine whether efforts to resolve internal data-sharing                  massive undertaking that requires extensive planning and
   problems are progressing adequately. 	                                      testing. For 2020, the Census Bureau plans to design
                                                                               and conduct a high-quality decennial operation that will
•	 Incorporate earned value management and budgets at the                      cost less per household on an inflation-adjusted basis
   project level to prioritize projects as well as assess and quantify         than the 2010 Census.

   2020 Census research program results. 

                                                                               To achieve this goal, the bureau is focusing on three
•	 Define and adhere to a final testing schedule. Determine how                primary design features: (1) offering the Internet as a
   iterative testing and the American Community Survey can be                  response option, (2) targeted address canvassing, and
   used for the operational testing phase.                                     (3) using administrative records to follow up on cases of
                                                                               non-response. Implementing these changes could save
•	 Require research and testing (R&T) teams to update the                      the government hundreds of millions of dollars.

   Knowledge Management Database with the status of current 

   Census Program Evaluation and Experiments recommendations 

   and develop a bureau-wide solution for knowledge 

   management. 


•	 Create a more structured process for R&T review by drafting guidelines that specify
   responsibilities of the Scientific and Methodological review panels and the research teams.

•	 Ensure research outputs are usable and on time to drive the trade-off analysis process and
   develop a vehicle for communicating key decisions and events.

•	 Establish a formal process to review, approve, and monitor R&T project teams’ risk registers
   to ensure timely identification of risks and development of mitigation and contingency plans as
   appropriate.
22   Office of Inspector General | Semiannual Report to Congress | March 2014




       NATIONAL INSTITUTE OF STANDARDS
       AND TECHNOLOGY



       The National Institute of Standards and Technology promotes
       U.S. innovation and industrial competitiveness by advancing
       measurement science, standards, and technology in ways that enhance
       economic security and improve our quality of life. NIST carries out its
       mission via three cooperative programs.

       NIST Laboratories—Conduct research that advances the nation’s
       technology infrastructure and is needed by U.S. industry to continually
       improve products and services.

       Hollings Manufacturing Extension Partnership—Works with
       small- and mid-sized U.S. manufacturers through a nationwide network
       of 350 field offices to help them create and retain jobs, expand into new
       markets and new products, increase profits, and save time and money.

       Baldrige Performance Excellence Program—Promotes
       performance excellence among U.S. manufacturers, service companies,
       educational institutions, health care providers, and nonprofit
       organizations through outreach programs and the annual Malcolm
       Baldrige National Quality Award.
                                                                National Institute of Standards and Technology                       23




MANUFACTURING EXTENSION PARTNERSHIP INCURRED AVOIDABLE
CONFERENCE COSTS (OIG-14-013-A)

In response to a July 2012 request from U.S. Senator Susan
Collins, OIG conducted an audit of NIST-Manufacturing Extension             Manufacturing Extension
Partnership (MEP) conference spending over FYs 2011 and                     Partnership Program
2012. Our audit’s objectives were to (a) develop a reasonable
cost estimate for the 2012 NIST-MEP annual conference held in               NIST’s MEP program is a network of technical experts
Orlando and (b) determine the legitimacy and reasonableness of              and business advisers who work with small and midsized
travel costs for major NIST-MEP conferences in FYs 2011 and                 U.S. manufacturers, helping these businesses identify
2012.                                                                       growth opportunities. NIST-MEP funds approximately
                                                                            60 MEP Centers across the United States.
Despite media allegations that $3–5 million in federal funds were
spent at the May 2012 Manufacturing Innovation Event in Orlando,            Since 2006, NIST MEP has hosted an annual
we found that federal conference costs were estimated at $1.1               conference in Orlando to help MEP Centers learn about
million. We calculated the NIST-MEP share of this amount to be              the latest tools, services, best practices, and strategies
almost $710,000.                                                            to advance the innovation and competitiveness of their
                                                                            clients. In addition, the annual conference is intended
We concluded that                                                           to provide attendees the opportunity to connect directly
                                                                            with manufacturers.
•	 The NIST-MEP event planner retained concessions and
   benefits for the May 2012 conference that could have been
   used to reduce the government’s conference cost.

•	 The NIST-MEP event planner raised funds to pay for an evening reception by selling
   sponsorships in exchange for conference attendee lists and logo branding opportunities
   on conference materials; none of the sponsorship fees were used to reduce the cost of the
   conference to the federal government.

•	 The NIST-MEP event planner retained and/or spent $236,341 in sponsorship fees,
   commissions, concessions, and excess registration fees instead of returning these funds and
   benefits to the government.

•	 NIST-MEP management agreed to room rates for government attendees that exceeded
   allowable maximum conference lodging rates in order to standardize rates for government and
   nongovernment attendees.

•	 NIST-MEP did not sufficiently process travel claims to guard against waste.

We recommended that the Director, NIST-MEP, implement controls to ensure that

•	 Contractors comply with Federal Travel Regulation (FTR) cost restrictions when choosing a
   conference location; NIST-MEP monitors contractor performance thoroughly; and NIST-MEP
   documents contractor compliance with the contract terms and conditions and applicable
   government regulations, including the FTR.

•	 Funds collected from the sales of sponsorships are not used to pay for alcohol and live
   entertainment but rather to reduce the costs of the conference to the government.

•	 NIST-MEP does not accept upgraded suites or any other valuable items related to government
   travel from government contractors.
24   Office of Inspector General | Semiannual Report to Congress | March 2014




     We further recommended that the Director, NIST-MEP

     •	 Make a determination on the recovery of $148,000 that IMC collected for sponsorship
        fees and $88,341 that the event planner retained for both registration fees and a
        concession refund.

     •	 Evaluate and determine whether administrative disciplinary action is appropriate if NIST
        management made decisions to subsidize private attendee room rates by increasing
        government attendees’ room rates in violation of the FTR maximum allowable rates.

     •	 Evaluate and determine whether administrative disciplinary action is appropriate for
        attendees who claimed and reviewing officials who approved expenses that were not incurred
        for the 2011 or 2012 or who misused government travel card privileges. The bureau should
        pursue reimbursement of overpayments and correctly reimburse underpaid attendees,
        wherever possible.
26   Office of Inspector General | Semiannual Report to Congress | March 2014




     NATIONAL OCEANIC AND
     ATMOSPHERIC ADMINISTRATION



     The National Oceanic and Atmospheric Administration mission is to
     understand and predict changes in Earth’s environment, as well as conserve
     and manage coastal and marine resources to meet our nation’s economic,
     social, and environmental needs. NOAA does this through six line offices.

     National Environmental Satellite, Data, and Information Service—
     Observes the environment by operating a national satellite system.

     National Marine Fisheries Service—Conducts a program of
     management, research, and services related to the protection and rational use
     of living marine resources.

     National Ocean Service—Provides products, services, and information
     to promote safe navigation, support coastal communities, sustain marine
     ecosystems, and mitigate coastal hazards.

     National Weather Service—Reports the weather of the United States and
     provides weather forecasts and warnings to the general public.

     Office of Oceanic and Atmospheric Research—Conducts research
     related to the oceans and Great Lakes, the lower and upper atmosphere,
     space environment, and the earth.

     Office of Program Planning and Integration—Develops and
     coordinates NOAA’s strategic plan, supports organization-wide planning
     activities, guides managers and employees on program and performance
     management, and integrates policy analysis with decision making.
                                                                            National Oceanic and Atmospheric Administration   27




AUDIT OF NOAA’S GEOSTATIONARY OPERATIONAL ENVIRONMENTAL SATELLITE-R
SERIES CORE GROUND SYSTEM OBSERVATIONS (OIG-14-014-M)

In June 2013 OIG began conducting an audit of NOAA’s Geostationary Operational
Environmental Satellite-R (GOES-R) Series program. Our audit objective is to assess the
adequacy of GOES-R development activities, as the program completes the ground system,
the fabrication of flight instruments and the spacecraft, and transitions to system integration and
test. We are also monitoring NOAA’s progress in developing and vetting with stakeholders a
comprehensive set of trade-off approaches to mitigate launch delays, as well as its oversight of
GOES-R systems engineering.

In March 2014 we provided the then-Acting Under Secretary of Commerce for Oceans and
Atmosphere with our initial observations concerning the core ground system that warranted
immediate attention. These observations can be summarized as follows:

•	 The first re-plan did not give high priority to the development of functions essential for launch.

•	 The first re-plan was based on the contractor’s over-optimistic assumptions.

•	 The GOES-R program office waited too long to intercede to correct schedule slips with the
   first re-plan.

•	 Technical problems, multiple development plans, and inadequate contingency funding caused
   schedule slips.

•	 The second re-plan focuses on essential functions, but time constraints could lead to delayed
   satellite operations.

OIG Estimate of the Core Ground System Completion Date, Based on Progress Made
in Implementing Core Ground System Re-Plan


                                                                                        Launch readiness date:
                                                                                            October 2015

                                                                                            15           Original Plan
       Contract award
        (May 2009)                                                Original Plan           months         15 months 
                                                                                           late          behind schedule



                                                                                         11        First Re­Plan
                                        Re­plan proposal                                           • Cost: $89 million
                                    (submitted October 2011)      First Re­Plan        months
                                                                                        late       • Still 11 months
                                                                                                     behind schedule


                                                                                       5     Second Re­Plan
                                      Schedule Summit
                                                                Second Re­Plan      months   • Potential cost overrun
                                        (June 2013)                                          • Potential reduced
                                                                                     late
                                                                                              ground system capability

                                                                                             OIG Estimate a
                                                                                             In October 2015, core
                                                                                             ground system is
                                                                                             projected to be 5
                                                                                             months behind schedule

    2009         2010        2011           2012         2013     2014       2015         2016         2017


Source: OIG analysis of NOAA data
a  OIG’s estimate of months remaining to develop the core ground system on October 2015 assumes that (1) the contractor
was able to start the second re-plan immediately when it was determined that development was 11 months behind schedule
(i.e., at a June 2013 schedule summit meeting) and (2) development time can be regained at the same rate as was regained
by the first re-plan (i.e., 4 months regained over 20 months duration).
28   Office of Inspector General | Semiannual Report to Congress | March 2014




     Based on previous performance, we believe that, without leadership’s attention, the core ground
     system may not meet minimum requirements for launch in October 2015. We estimated that
     the earliest the core ground system will be completed is March 2016, 5 months after the launch
     readiness date.

     OIG recommended that the Under Secretary establish periodic discussions with both
     Departmental and contractor leadership to ensure the core ground system will meet the October
     2015 launch readiness date.

     GOES-R STAFF REIMBURSE NOAA FOR TIME SPENT WATCHING STAR TREK

     In mid-2013, OIG received an anonymous whistleblower tip about a team-building exercise
     conducted by the GOES-R ground segment project staff that was improperly billed to the
     government. In our subsequent investigation, we found that 21 NOAA employees and consultants
     employed by private companies were invited to attend a group lunch at a local restaurant, followed
     by a daytime showing of Star Trek: Into Darkness. Twenty individuals working on the GOES-R
     ground project attended the lunch and 18 attended the movie; the vast majority of participants
     mischarged the government for participating in these activities. As a result of our investigation,
     those participants worked with NOAA to amend their time and attendance records to claim
     personal leave for time spent at the lunch and movie.

     As a result of our investigative activities, approximately $3,500 that was mischarged to the
     government was returned. OIG suggested that clear written guidance on proper timekeeping
     be communicated to agency and contractor staff in advance of any similar work group outings.
     Commendably, one consultant made a self-disclosure that more time was spent at the offsite
     event than determined by the program office. We are currently looking into whether the amount
     returned is adequate.

     FIVE INDICTED FOR CONSPIRACY AND FRAUD RELATED TO NOAA
     FISHERIES FUNDS

     In November 2013, the U.S. Attorney’s Office for the Southern District of Mississippi announced
     indictments from federal and state grand juries against five individuals for conspiracy, bribery,
     federal program fraud, mail fraud, and money laundering. Four of the individuals charged were
     employees of the State of Mississippi’s Department of Marine Resources (MDMR), which received
     nearly $62 million in Emergency Disaster Relief Program (EDRP) grant funds through NOAA’s
     National Marine Fisheries Service, from 2006 to 2013. MDMR received eight different awards
     in part for oyster reef restoration, oyster and shrimp ground restoration, research, testing, and
     assistance to businesses and fishers.

     Our investigation, which was conducted in coordination with the Federal Bureau of Investigation
     and Mississippi’s Office of the State Auditor, found MDMR’s former executive director embezzled
     $210,000, most of which came from EDRP funds, to purchase land on behalf of a family member.
     The FBI’s investigation involved a larger-scale public corruption scandal that encompassed
     elected officials and several people who held senior positions within MDMR. According to the
     indictment, these individuals set up a private not-for-profit entity named “Mississippi Marine
     Resources Foundation,” where they proceeded to allegedly transfer funds intended for the State
     of Mississippi. In addition to the indictments, the State of Mississippi issued civil demands against
     10 individuals totaling more than $1 million. A trial date has been set for June 2014. Despite
     the severity of the charges, subjects of criminal indictments are presumed innocent until
     proven otherwise.
30   Office of Inspector General | Semiannual Report to Congress | March 2014




     UNITED STATES PATENT
     AND TRADEMARK OFFICE



     The United States Patent and Trademark Office administers the
     nation’s patent and trademark laws. Patents are granted and trademarks
     registered under a system intended to provide incentives to invent,
     invest in research, and commercialize new technology. USPTO also
     collects, assembles, publishes, and disseminates technological
     information disclosed in patents.
                                                                      United States Patent and Trademark Office   31




FY 2013 FINANCIAL STATEMENTS AUDIT (OIG-14-005-A, OIG-14-0008-A)

Independent auditor KPMG LLP performed the audit in accordance with U.S. generally accepted
government auditing standards and OMB Bulletin 14-02, Audit Requirements for Federal
Financial Statements. In its audit of USPTO, KPMG determined that the financial statements
were fairly presented in all material respects and in conformity with U.S. generally accepted
accounting principles.

KPMG identified no instances of internal control over financial reporting that were considered
to be a material weakness, as defined in its report. (A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected, on a timely basis.)

In addition, KPMG identified no instances of reportable noncompliance with applicable laws,
regulations, and contracts.

KPMG also issued a report that summarized information technology deficiencies noted in access
controls, configuration management and contingency planning, which collectively were not
considered to be a material weakness or significant deficiency.

PATENT EXAMINER SUSPENDED FOR 45 DAYS FOR ETHICS ISSUES

In the September 2013 Semiannual Report to Congress, we noted that our investigation into
ethics violations by a patent examiner found that the individual purchased stock from a public
company for which he was simultaneously processing and examining patent applications. In
October 2013, USPTO informed us that the examiner had been suspended for 45 days. As
a result of our findings related to internal control weaknesses, USPTO previously agreed to
implement annual ethics training for patent examiners at all grade levels.
32   Office of Inspector General | Semiannual Report to Congress | March 2014




     AMERICAN RECOVERY
     AND REINVESTMENT ACT



     The Recovery Act—signed into law by President Barack Obama on
     February 17, 2009—had three immediate goals: (1) create new jobs
     and save existing ones, (2) spur economic activity and invest in long­
     term growth, and (3) foster unprecedented levels of transparency and
     accountability.

     Five Department of Commerce bureaus—the Census Bureau, EDA,
     NIST, NOAA, and NTIA—and OIG received $7.9 billion under the
     Act, with $1.2 billion ultimately rescinded or transferred to other
     agencies. Financial and activity reporting for the Recovery Act ended
     as of December 31, 2013. As of December 31, 2013, the Department
     had obligated and disbursed almost all of the approximately $6 billion
     remaining. (The disbursal amount includes funding for the now-
     completed NTIA Digital Television Converter Box Coupon Program.)
                                                                      American Recovery and Reinvestment Act                       33




OIG RECOVERY ACT OVERSIGHT, FEBRUARY 2009–MARCH 2014

Funded by $16 million for proactive oversight of the Department’s Recovery Act programs and
activities, OIG has been evaluating whether agencies are using Recovery Act funds efficiently and
effectively and following up on complaints, including whistleblower reprisal allegations.

    Key Activities                                                               Cumulative Results

    Published audit and evaluation reports                                                   23
    Other work products (correspondence to Congress and the
        Recovery Accountability and Transparency Board)                                       8
    Audits/evaluations in progress                                                            3
    OIG recommendations for action, correction, or improvement                               92
    Recommendations implemented to take corrective action by
        making improvements, reducing risk, or preventing waste                             78
    Investigations completed                                                                27
    Investigations in progress                                                               4
    Whistleblower reprisal allegations received                                             16
    Whistleblower reprisal allegations accepted                                            15a
    Debarments and corporate compliance agreements implemented                               1
    Testimonies                                                                              6
    Proactive training and outreach sessions held                                          129
    Individuals trained                                                                  6,624
    Hours of training provided                                                           8,259
a   Adjusted for previous reporting error.


CLOSEOUT PROCEDURES FOR THE BROADBAND
TECHNOLOGY OPPORTUNITIES PROGRAM NEED                                      Broadband Technology
STRENGTHENING (OIG-14-010-A)
                                                                           Opportunities Program
As part of our continued oversight of NTIA’s BTOP awards,
                                                                           The Recovery Act of 2009 provided $4.7 billion for
we conducted an audit to evaluate (1) whether policies and
                                                                           NTIA to establish BTOP. The agency awarded more
procedures were adequate to effectively administer closeout
                                                                           than 230 BTOP grants totaling $3.9 billion to deploy
activities and (2) whether closeout procedures were being
                                                                           broadband Comprehensive Community Infrastructure
followed. Closeout consists of the steps taken by the award
                                                                           (CCI), create and expand Public Computer Centers
recipient and the grants office to ensure that project activity is
                                                                           (PCC), and promote the Sustainable Broadband
complete and the award recipient has met all the requirements
                                                                           Adoption (SBA) services.
under applicable laws, regulations, OMB circulars, and the award
terms and conditions.
                                                                           NIST administers the PCC and SBA grants; NOAA
                                                                           administers the CCI grants. All BTOP grants were
At the time of our fieldwork (March–May 2013), only 5 of the
                                                                           awarded before September 30, 2010, and each project
current 224 total grants (a small number were terminated) had
                                                                           was required to be completed within three years after
been closed out under the program. NTIA, along with the grants
                                                                           the award date. In support of implementation of the
offices at NIST and NOAA, developed closeout procedures to
                                                                           awards, grant recipients have disbursed 78 percent of
ensure that laws, regulations, and award conditions are met.
                                                                           BTOP funds as of June 30, 2013.
Grant procedures were documented in various handbooks,
checklists, fact sheets, and other publications; all three agencies
held webinars to help recipients understand the grant
closeout process.

We found that NTIA, along with the grants offices at NIST and NOAA, encountered challenges
in effectively closing out the first awards. Delays have occurred due to computer system issues
34   Office of Inspector General | Semiannual Report to Congress | March 2014




     that were not identified until those initial closeouts, time-consuming Uniform Commercial Code­
     1 filings (to secure federal interest in property), audits of for-profit companies that must be
     completed before closeout, and extension requests.

     Although NTIA and the grants offices have established and continue to refine an initial closeout
     process, we identified specific weaknesses that should be addressed to ensure more effective
     closeout of BTOP awards:

     •	 Standard Operating Procedures (SOPs) at NIST and closeout procedures at NOAA
        were incomplete.

     •	 SOPs and closeout procedures were not always followed and grant files were incomplete.

     •	 NTIA’s federal program officers had an inconsistent approach to grant closeouts.

     •	 A post-fieldwork issue was identified with a lack of a single audit for a BTOP recipient.

     We recommended that the Assistant Secretary for Communications and Information of
     NTIA direct

     •	 NIST and NOAA grants offices to update their closeout procedures to include all required
        documentation to be obtained and reviewed before closing the grant; require that all grant
        recipients who will not meet the 90-day reporting period request an extension before the
        award period ends; work with NTIA to develop procedures to address unused supplies with an
        aggregate value of greater than $5,000; and implement a procedure to ensure that adequate
        grants funds are available to cover the cost of required financial and compliance audit reports.

     •	 The NIST grants office to update its SOPs to include a process for recovering unspent
        advances and a record-retention requirement in the body of the SOP.

     •	 NOAA to update its closeout procedures to include the following requirements: Real Property
        Status Report (SF-429); Tangible Personal Property Report (SF-428); Financial Status Report
        (SF-269) and Outlay Report and Request for Reimbursement for Construction Programs
        (SF-271) for BTOP grants with a construction component; audit report requirements; Uniform
        Commercial Code-1 filing requirement, where applicable; and notification to recipients 30 days
        prior to award end.

     •	 NTIA to remind all federal program officers to follow the predefined process for guiding grant
        recipients through closeout—which could be accomplished through staff training, webinars, or
        a memorandum to staff reminding them of their responsibility to follow procedures.

     In responding to our September 23, 2013, draft memorandum, NTIA, NOAA, and NIST provided
     separate responses acknowledging our recommendations, and described the steps they have
     taken and are taking to address them.

     LETTER TO REPRESENTATIVES WALDEN, GARDNER, AND TIPTON RE: REVIEW OF
     NTIA’S BROADBAND TECHNOLOGY OPPORTUNITIES PROGRAM GRANT TO EAGLE­
     NET ALLIANCE OF COLORADO (OIG-14-011-M)

     In January 2014, the Inspector General responded to a May 2013 Congressional request to
     review NTIA’s BTOP grant award to EAGLE-Net Alliance (ENA). The $100.6 million award was
     one of the Recovery Act’s largest broadband grants and became a source of controversy that
     attracted national media coverage.
                                                                      American Recovery and Reinvestment Act   35




NTIA has had to provide substantial oversight to this award as ENA experienced challenges in
such areas as meeting award match requirements, project management, and financial controls.
Ultimately, the award was suspended in December 2012 due to the grantee’s failure to comply
with a special award condition related to environmental and historic compliance, an action
that could have eventually resulted in termination of the award. NTIA subsequently lifted the
suspension in April 2013 after the grantee had addressed this issue.

We established five objectives for our review. These objectives included determining: (1)
whether ENA’s network design changed after the transfer of the grant from Centennial Board of
Cooperative Educational Services (CBOCES) or during the grants administration; (2) how much
of the project had been completed and what was planned with the remaining grant funds; (3)
whether ENA had laid fiber-optic cable next to existing fiber; (4) the amount of monthly expense
and revenue recorded by ENA; and (5) whether grant terms and conditions of the grant were
being met.

As part of our review, we found that

•   ENA made unapproved changes to its network plan, moving from a primarily microwave
    network to a predominately fiber-optic network comprised of new and leased fiber and some
    components of microwave. ENA also reduced the number of community anchor institutions
    (CAIs), from 234 to 131, that it planned to reach with award funds.

•   As of June 2013, ENA had drawn down approximately $90 million of the $100.6 million grant,
    yet significant work remains to be completed. As of that date, ENA had reached 102 CAIs, or
    44 percent of the CAIs in the original plan. ENA plans to reach 131 of 223 CAIs with grant
    funds. The remaining 92 will only be connected if additional, non-grant funding is obtained.

ENA faces additional challenges, including the project’s inability to fully achieve the award’s
intended results and continued internal control issues related to financial recordkeeping and
monitoring of grant disbursements. Ensuring sustainability is also a concern.

BTOP INVESTIGATION CLOSED BASED ON WITHDRAWAL BY COMPLAINANT

ARRA Section 1553(3)(C) requires that inspectors general report a “list of those investigations
the inspector general decided not to conduct or continue.” In November 2013, OIG discontinued
investigation into the circumstances involving the termination of an employee from a BTOP
grantee, who reported that this was done as a result of an earlier refusal to circumvent rules to
provide funds to pre-selected entities. During an interview with OIG investigators, the complainant
requested to formally withdraw the complaint, which was followed up by a written request. Though
the statute does not specify whether an inspector general should report the withdrawn complaint
in this report, out of an abundance of caution, we have decided to include information on this
case, which was closed during this reporting period.
36   Office of Inspector General | Semiannual Report to Congress | March 2014




     WORK IN
     PROGRESS


     WORK IN PROGRESS (BY OVERSIGHT AREA)

     During this reporting period, 23 OIG audit and evaluation projects were initiated or underway.




              5
                           4            4
                                                      3
                                                                    2            2
                                                                                        1     1      1

     Department­wide      NOAA     Recovery Act a   USPTO           BIS         ESA b   EDA   ITA   NIST


     a   All Recovery Act-related works in progress concern NTIA.
     b   Both ESA works in progress concern the Census Bureau.



     DEPARTMENT-WIDE

     Office of Secretary Working Capital Fund
     Evaluate controls over the Department’s Working Capital Fund, including a review of the
     Department’s budget process and financial management of the fund.

     FY 2014 Audit of the Department’s Financial Statements
     Determine whether the Department’s financial statements are presented fairly, in all material
     respects, in accordance with generally accepted accounting principles. (The audit will also
     consider the Department’s internal control over financial reporting and compliance with certain
     provisions of applicable laws, regulations, contracts, and grant agreements that could have a
     direct and material effect on the financial statements).

     Audit of the Department’s Incident Detection and Response Capabilities
     Determine, as part of our FY 2013 FISMA audit, whether key security measures are in place to
     adequately monitor the Department’s computer networks, detect malicious activities, and handle
     cyber incidents.
                                                                                         Work in Progress   37




Review of the Department’s FY 2013 Compliance with Improper
Payments Requirements
Review the Department’s compliance with the requirements of IPIA (i.e., the Improper Payments
Information Act of 2002, as amended by the Improper Payments Elimination and Recovery Act
of 2010 and the Improper Payments Elimination and Recovery Improvement Act of 2012) and
OMB Circular A-123, Appendix C, which requires federal inspectors general to review improper
payment reporting annually.

Audit of Commerce’s Cloud-Computing Environments
Evaluate the Department’s efforts to adopt cloud-computing technologies and review executed
contracts between the Department’s bureaus and cloud service providers for compliance with
applicable standards.


BUREAU OF INDUSTRY AND SECURITY

BIS Export Control Reform Preparedness
Audit BIS’ plans to implement changes to its licensing and enforcement operations resulting
from the Export Control Reform Initiative, including (a) a review of the adequacy of BIS program
plans and budget requests to address the increased workloads in FYs 2014–2016 and (b) an
evaluation of existing BIS licensing, outreach, and enforcement activities to identify any areas for
increased efficiencies.

Audit of BIS’ IT Security
Assess, as part of our FY 2014 FISMA audit, whether BIS’ continuous monitoring strategy and
practices—including ongoing security control assessments of its critical information systems—
provide adequate information for authorizing officials to make proper risk-based decisions.


ECONOMIC DEVELOPMENT ADMINISTRATION

Audit of Revolving Loan Fund (RLF) Program
Audit EDA’s controls and processes associated with management of its RLF program to determine
how EDA responds to performance problems, such as low utilization rates, high default rates, or
noncompliance with reporting requirements. Also, determine how EDA responds to communities
that may no longer be considered distressed or underserved.


ECONOMICS AND STATISTICS ADMINISTRATION

Census Budget Reduction Implementation
Review the Census Bureau’s process for implementing budget reductions to the 2020 Census
Research Program in FYs 2013 and 2014.

Audit of the Census Bureau’s IT Security
Determine, as part of our FY 2014 FISMA audit, whether the Census Bureau’s continuous
monitoring strategy and practices—including ongoing security control assessments of its critical
information systems—provide adequate information for authorizing officials to make proper risk-
based decisions.
38   Office of Inspector General | Semiannual Report to Congress | March 2014




     INTERNATIONAL TRADE ADMINISTRATION

     Audit of ITA Consolidation
     Evaluate and report on the progress, efficacy, and management of the October 2013
     consolidation of ITA’s four units into three, and specifically (1) assess the status of ITA
     consolidation, (2) evaluate whether resource changes as a result of the consolidation are aligned
     with ITA’s strategic priorities and are sufficient for providing services to ITA’s customers and
     stakeholders, and (3) identify management and leadership challenges that might hinder the
     consolidation effort.


     NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

     Audit of NIST’s Oversight of Firm-Fixed-Price (FFP) Contracts
     Determine whether (1) NIST has managed and administered FFP contracts in accordance with
     federal and Departmental guidelines, policies, and procedures, and (2) officials with performance
     monitoring responsibilities possess the requisite training, technical expertise, and certification.


     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

     Audit of NOAA’s IT Security Program
     Assess, as part of our FY 2013 FISMA audit, the effectiveness of NOAA’s information security
     program by determining whether key security measures adequately protect NOAA’s systems.

     Review of NOAA’s Catch Share Program
     Review fisheries management at NOAA and eight regional fishery management councils regarding
     NOAA’s catch share programs (i.e., allocation of the total allowable fishery catch or a specific
     fishing area to individuals, cooperatives, communities, or other entities) to determine the adequacy
     of related NOAA controls and processes.

     Joint Polar Satellite System (JPSS) Implementation Risks
     Review the adequacy of JPSS development activities, including the flight, ground, and “free-flyer”
     projects, as the program completes system definition and transitions to implementation per NOAA
     and NASA standards. Monitor NOAA’s overall progress in establishing the program’s capabilities
     (requirements), schedule, and cost baselines by the end of summer 2013 and its efforts in
     mitigating the projected data gap between Suomi National Polar-orbiting Partnership satellite’s
     end-of-design life and the planned operational availability of the first JPSS satellite (JPSS-1).

     Audit of Geostationary Operational Environmental Satellite-R Series
     (GOES-R) Program
     Assess the adequacy of GOES-R development activities in accordance with NOAA and
     NASA standards. Monitor NOAA’s progress in developing and vetting with stakeholders a
     comprehensive set of trade-off approaches to mitigate launch delays and its oversight of GOES-R
     systems engineering.


     UNITED STATES PATENT AND TRADEMARK OFFICE

     Audit of USPTO’s Use of Time-Materials and Labor-Hour Contracts
     Evaluate USPTO’s awarding and administering of time-and-materials and labor-hour contracts,
     which constitute high risk to the government. This is part of a risk-based oversight strategy
     developed to help the Department address management challenges in its acquisition function
     and comply with OMB’s directive that federal agencies reduce their use of high-risk contracting
     authorities.
                                                                                         Work in Progress   39




Audit of USPTO IT Modernization Projects
Assess the impact of IT contract termination decisions made as a result of the $110 million
reduction in USPTO’s IT budget, review progress USPTO has made in implementing the
recommendations from the FY 2011 Patent End-to-End audit, and assess the project
management and technical progress USPTO has made in development and implementation of the
Trademark Next Generation project.

Audit of USPTO’s Delays in Processing Request for Continued Examination (RCE)
Patent Applications
Assess why there has been an increase in average RCE pendency and the RCE backlog, and
assess USPTO’s efforts to monitor and address them. The audit will also review specific USPTO
programs intended to resolve issues during the initial processing of patent applications.


AMERICAN RECOVERY AND REINVESTMENT ACT

Broadband Technology Opportunities Program Equipment Review
Determine whether NTIA has the personnel and processes in place to monitor BTOP grantees’
equipment acquisitions; assess whether grantees have appropriately acquired, tested, and
implemented the most effective equipment; and evaluate whether grantees are on track to
complete BTOP projects on schedule and achieve project goals.

Audit of Broadband Technology Opportunities Program Public Computer
Centers (PCCs)
Review NTIA’s procedures to ensure that (1) PCC recipients used appropriate procurement
practices; (2) recipient equipment purchases are installed, functioning effectively, and utilized to
achieve intended program outputs; (3) controls are in place to ensure effective accountability for
the purchased equipment; and (4) claimed results are verifiable.

Audit of Broadband Technology Opportunities Program Inventory Excess
Review BTOP grantees’ inventory of excess equipment to (1) determine whether grantees
purchased equipment outside of the needs of the program, (2) assess procedures taken by
NTIA to identify recipients maintaining excess inventory, and (3) evaluate NTIA’s procedures for
disposition of excess BTOP award inventory.

Audit of FirstNet Procurement Issues
Review certain ethics and procurement issues concerning the operations of FirstNet, assessing
whether (a) contracts were appropriately awarded and administered in accordance with relevant
acquisition regulations, (b) the acquired services were delivered to meet contract requirements,
and (c) the processes undertaken by FirstNet pertaining to ethics-related matters of the board
were adequate.
40   Office of Inspector General | Semiannual Report to Congress | March 2014




     STATISTICAL DATA



     The Inspector General Act Amendments of 1988 require us to present the statistical data
     contained in tables 1–8.

       TABLES 	                                                                                     Page

       1. Office of Investigations Statistical Highlights for This Period 	                          40


       2. Audit Resolution and Follow-up 	                                                           41


       3. Audit, Evaluation, and Inspection Statistical Highlights for This Period 	                 42


       4. Audits with Questioned Costs 	                                                             43


       5. Audits with Recommendations That Funds Be Put to Better Use 	                              44


       6. Report Types for This Period 	                                                             44


          6-a. Performance Audits                                                                    45


          6-b. Financial Statement Audits                                                            45


          6-c. Evaluations and Inspections                                                           46


       7. Single Audit and Program-Specific Audits 	                                                 47


          7-a. Processed Reports with Material Audit Findings                                        48


       8. Audits Unresolved for More Than 6 Months 	                                                 49





     TABLE 1. OFFICE OF INVESTIGATIONS STATISTICAL HIGHLIGHTS FOR THIS PERIOD

     Investigative activities cover investigations opened and closed by OIG; arrests by OIG
     agents; indictments and other criminal charges filed against individuals or entities as a result of
     OIG investigations; convictions secured at trial or by guilty plea as a result of OIG investigations;
     and fines, restitution, and all other forms of financial recoveries achieved by OIG as a result of
     investigative action.

     Allegations processed presents the number of complaints from employees, stakeholders, and
     the general public that were handled by our Complaint Intake Unit. Of these, some resulted in
     the opening of investigations; others were referred to bureaus for internal administrative follow-
     up. Others were unrelated to departmental activities or did not provide sufficient information for
     any investigative follow-up and so were not accepted for investigation or referral. Fines and other
     financial recoveries refer only to agreements that a judge accepted.
                                                                                                                   Statistical Data   41




                                                   Allegations Received

    Total hotline contacts                                                                                                482

    Of which, are complaints related to Commerce programs                                                                 257

    Number of hotline referrals to Commerce management                                                                    142

                                                    Investigative Caseload

    Investigations opened this period                                                                                       33

    Investigations closed this period                                                                                       28

    Investigations in progress as of March 31, 2014                                                                       109

                                       Prosecutive Actions and Monetary Results

    Indictments/Informations                                                                                                 3a

    Arrests                                                                                                                   0

    Convictions                                                                                                               1

    Fines and other financial recoveries                                                                           $384,429b

                                                    Administrative Actions

    Suspension/Debarment                                                                                                      1

    Disciplinary action                                                                                                       1

a   Two indictments are detailed in this report, and one remains under seal.

b   This amount reflects a disbursement in a larger settlement that was claimed in a previous reporting period.





TABLE 2. AUDIT RESOLUTION AND FOLLOW-UP

The Inspector General Act Amendments of 1988 require us to present in this report audits
issued before the beginning of the reporting period (October 1, 2013) for which no management
decision had been made by the end of the period (March 31, 2014). One audit report remains
unresolved for this reporting period (see page 49).

Audit resolution is the process by which the Department of Commerce reaches an effective
management decision in response to audit reports. Management decision refers to
management’s evaluation of the findings and recommendations included in the audit report and
the issuance of a final decision by management concerning its response.

Department Administrative Order 213-5, Audit Resolution and Follow-up, provides procedures
for management to request a modification to an approved audit action plan or for a financial
assistance recipient to appeal an audit resolution determination. The following table summarizes
modification and appeal activity during the reporting period.
42   Office of Inspector General | Semiannual Report to Congress | March 2014




         Report Category                                          Modifications           Appeals

         Actions pending (October 1, 2013)                                0                  3
         Submissions                                                      0                  5
         Decisions                                                        0                  3
         Actions pending (March 31, 2014)                                 0                  5




     TABLE 3. AUDIT, EVALUATION, AND INSPECTION STATISTICAL HIGHLIGHTS
     FOR THIS PERIOD

     Audits comply with standards established by the Comptroller General of the United States for
     audits of federal establishments, organizations, programs, activities, and functions.

     Evaluations and inspections include evaluations, inquiries, and similar types of reviews that do
     not constitute an audit or a criminal investigation.


         Questioned costsa                                                               $172,334,968

         Value of audit recommendations that funds be put to better useb                    $1,452,000

         Value of audit recommendations agreed to by managementc                         $175,802,360


     These amounts include costs questioned by state and local government auditors or independent
     public accountants.

     a Questioned cost: This is a cost questioned by OIG because of (1) an alleged violation of
     a provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
     document governing the expenditure of funds; (2) a finding that, at the time of the audit, such cost
     is not supported by adequate documentation; or (3) a finding that an expenditure of funds for the
     intended purpose is unnecessary or unreasonable.

     b Value of audit recommendations that funds be put to better use: This results from an
     OIG recommendation that funds could be used more efficiently if Department management
     took action to implement and complete the recommendation. Such actions may include
     (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of
     interest subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by
     implementing recommended improvements related to the Department, a contractor, or a grantee;
     (5) avoidance of unnecessary expenditures identified in preaward reviews of contracts or grant
     agreements; or (6) any other savings specifically identified.

     c Value of audit recommendations agreed to by management: This is the sum of
     (1) disallowed costs and (2) funds put to better use that are agreed to by management during
     resolution. Disallowed costs are the amount of costs that were questioned by the auditors or the
     agency action official and subsequently determined—during audit resolution or negotiations by a
     contracting officer—not to be charged to the government.
                                                                                                                   Statistical Data   43




TABLE 4. AUDITS WITH QUESTIONED COSTS

See table 3 for a definition of “questioned cost.” An unsupported cost is a cost that is not
supported by adequate documentation at the time of the audit. Questioned costs include
unsupported costs.

    Report Category                                             Number                 Questioned              Unsupported
                                                                                         Costs                    Costs

    A.	   Reports for which no management decision
          had been made by the beginning of the                      9                  $3,713,694               $2,813,299
          reporting perioda

    B. 	 Reports issued during the reporting period                 11                172,334,968                    574,760

    Total reports (A+B) requiring a management
    decision during the periodb                                     20                176,048,662                  3,388,059

    C. 	 Reports for which a management decision
         was made during the reporting periodc                      11                173,338,354                  2,762,594
          i. Value of disallowed costs	                                               172,815,671                  2,762,594
          ii. Value of costs not disallowed	                                                522,683                            0

    D. 	 Reports for which no management decision
         had been made by the end of the
         reporting period                                            9                   2,710,308                   625,465

a One audit report included in this table is also included among reports with recommendations that funds be put to better
  use (see table 5). However, the dollar amounts do not overlap.
b In category C, lines i and ii do not always equal the total line in C because resolution may result in values greater than the
  original recommendations.
44   Office of Inspector General | Semiannual Report to Congress | March 2014




     TABLE 5. AUDITS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

     See table 3 for a definition of “recommendation that funds be put to better use.”

          Report Category 	                                                                         Number                    Value

          A. 	 Reports for which no management decision had been made by
               the beginning of the reporting period                                                    1                $1,686,689

          B. 	 Reports issued during the reporting period                                               2                 1,452,000

          Total reports (A+B) requiring a management decision during the periodb                        3                 3,138,689

          C. 	 Reports for which a management decision was made
               during the reporting periodc
                 i. Value of recommendations agreed to by management                                    2                 2,986,689
                 ii. Value of recommendations not agreed to by management                               0                             0

          D. 	 Reports for which no management decision had been made by
               the end of the reporting period                                                          1                    152,000
     a    One audit report included in this table is also included among reports with questioned costs (see table 4). However, the
          dollar amounts do not overlap.
     b	   In category C, lines i and ii do not always equal the total line in C because resolution may result in values greater than the
          original recommendations.




     TABLE 6. REPORT TYPES FOR THIS PERIOD

     Performance audits are engagements that provide assurance or conclusions based on an
     evaluation of sufficient, appropriate evidence against stated criteria, such as specific requirements,
     measures, or defined business practices. Performance audits provide objective analysis so that
     management, and those charged with governance and oversight can use the information to
     improve program performance and operations, reduce costs, facilitate decision making by parties
     with responsibility to oversee or initiate corrective action, and contribute to public accountability.

     Financial statement audits provide reasonable assurance through an opinion (or disclaimer
     of an opinion) about whether an entity’s financial statements are presented fairly in all material
     respects in conformity with generally accepted accounting principles, or with a comprehensive
     basis of accounting other than these principles.

     Evaluations and inspections include evaluations, inquiries, and similar types of reviews that
     do not constitute an audit or a criminal investigation. An inspection is defined as a process that
     evaluates, reviews, studies, or analyzes the programs and activities of a department or agency to
     provide information to managers for decision making; make recommendations for improvements to
     programs, policies, or procedures; and identify where administrative action may be necessary.

          Type                                            Number of Reports                                          Table Number

          Performance audits                                         4                                                  Table 6-a

          Financial statement audits                                 5                                                  Table 6-b

          Evaluations and inspections                                4                                                  Table 6-c

          Total                                                     13
                                                                                    Statistical Data                     45




TABLE 6-A. PERFORMANCE AUDITS

 Report Title                                Report         Date       Funds to Be            Amount         Amount
                                             Number        Issued         Put to             Questioned    Unsupported
                                                                        Better Use

 Economics and Statistics Administration

 2020 Census Planning: Research            OIG-14-003-A   12.03.2013       0                           0       0
 Delays and Program Management
 Challenges Threaten Design Innovation

 National Institute of Standards and Technology

 Manufacturing Extension Partnership       OIG-14-013-A   2.21.2014        0                    236,341        0
 Incurred Avoidable Conference Costs

 National Telecommunications and Information Administration

 Closeout Procedures for the               OIG-14-010-A   12.20.2013       0                           0       0
 Broadband Technology Opportunities
 Program Need Strengthening

 Office of the Secretary

 The Department’s Awarding and             OIG-14-001-A   11.08.2013    1,300,000            169,500,000       0
 Administering of Time-and-Materials
 and Labor-Hours Contracts
 Needs Improvement



TABLE 6-B. FINANCIAL STATEMENT AUDITS

 Report Title                                Report         Date       Funds to Be            Amount         Amount
                                             Number        Issued         Put to             Questioned    Unsupported
                                                                        Better Use

 Office of the Secretary

 FY 2013 Financial Statements              OIG-14-006-A   12.13.2013       0                           0       0
 Audit: Assessment of Information
 Technology Controls Supporting
 Financial Management Systems

 FY 2013 Consolidated Financial            OIG-14-007-A   12.16.2013       0                           0       0
 Statements Audit

 FY 2013 Closing Package                   OIG-14-009-A   12.17.2013       0                           0       0
 Financial Statements

 U.S. Patent and Trademark Office

 FY 2013 Financial Statements              OIG-14-005-A   12.16.2013       0                           0       0

 FY 2013 Financial Statements              OIG-14-008-A   12.16.2013       0                           0       0
 Audit: Assessment of Information
 Technology Controls Supporting
 Financial Management Systems
46                          Office of Inspector General | Semiannual Report to Congress | March 2014




TABLE 6-C. EVALUATIONS AND INSPECTIONS

 Report Title                                   Report                   Date            Funds to Be    Amount        Amount
                                                Number                  Issued              Put to     Questioned   Unsupported
                                                                                          Better Use

 Office of the Secretary

 Top Management Challenges                    OIG-14-002              11.25.2013                 0         0             0
 Facing the Department of
 Commerce

 Letter to Bicameral Task Force on          OIG-14-004-M              12.06.2013                 0         0             0
 Climate Change re: Review of
 Commerce Department’s Climate
 Change-Related Policies,
 Environmental Programs,
 and Activities

 National Telecommunications and Information Administration

 Letter to Representatives Walden,          OIG-14-011-M              01.23.2014                 0         0             0
 Gardner, and Tipton re: Review of
 NTIA’s Broadband Technology
 Opportunities Program Grant to
 Eagle-Net Alliance of Colorado

 National Oceanic and Atmospheric Administration

 Interim Memorandum to Acting               OIG-14-014-M              03.06.2014                 0         0             0
 Secretary Sullivan re: Audit of
 NOAA’s Geostationary Operational
 Environmental Satellite-R Series
 Core Ground System Observations
                                                                                     Statistical Data   47




TABLE 7. SINGLE AUDIT AND PROGRAM-SPECIFIC AUDITS

OIG reviewed and accepted 118 audit reports prepared by independent public accountants
and local, state, and other federal auditors. The reports processed with questioned costs,
recommendations that funds be put to better use, and/or nonfinancial recommendations are listed
in table 7-a.

    Agency                                                                        Audits

    Economic Development Administration                                              28

    Minority Business Development Administration                                       1

    National Institute of Standards and Technologya                                  21

    National Oceanic and Atmospheric Administration                                  14

    National Telecommunications and Information Administrationb                      38

    Multibureau                                                                      12

    No Departmental expenditures                                                       4

    Total                                                                           118
a   Includes 9 program-specific audits.
b   Includes 25 program-specific audits.
48                            Office of Inspector General | Semiannual Report to Congress | March 2014




TABLE 7-A. PROCESSED REPORTS WITH MATERIAL AUDIT FINDINGS

 Report Title                               Report                         Date              Funds to         Amount        Amount
                                            Number                        Issued            Be Put to        Questioned   Unsupported
                                                                                            Better Use

 Economic Development Administration

 East Alabama Regional               ATL-09999-14-4868                 11.14.2013                        0     141,065           0
 Development Commission

 Scioto County                       ATL-09999-14-4943                 03.07.2014            152,000             6,337           0

 South Jersey Economic                  OIG-14-04730                   03.28.2014                        0     355,556           0
 Development District, Inc.
 (FY ending 03.31.12)

 South Jersey Economic                  OIG-14-04589                   03.28.2014                        0           0           0
 Development District, Inc.
 (FY ending 03.31.11)

 National Institute of Standards and Technology

 L-3 Communications DBA                 OIG-14-04725                   03.28.2014                        0      21,285           0
 Warrior System Division

 Massachusetts MEP                      OIG-14-03560                   03.28.2014                        0           0           0
 (FY ending 06.30.08)

 Massachusetts MEP                      OIG-14-03886                   03.28.2014                        0           0           0
 (FY ending 06.30.09)

 Massachusetts MEP                      OIG-14-04164                   03.28.2014                        0           0           0
 (FY ending 06.30.10)

 Massachusetts MEP                      OIG-14-04480                   03.28.2014                        0           0           0
 (FY ending 06.30.11)

 Massachusetts MEP                      OIG-14-04785                   03.28.2014                        0      35,143           0
 (FY ending 06.30.12)

 Florida MEP                            OIG-14-03735                   03.31.2014                        0           0           0
 (FY ending 04.30.08)

 Florida MEP                            OIG-14-03754                   03.31.2014                        0           0           0
 (FY ending 04.30.09)

 Florida MEP                            OIG-14-04033                   03.31.2014                        0           0           0
 (FY ending 04.30.10)

 Florida MEP                            OIG-14-04399                   03.31.2014                        0           0           0
 (FY ending 04.30.11)

 Florida MEP                            OIG-14-04872                   03.31.2014                        0     574,760      574,760
 (FY ending 04.30.12)

 HyperTech Research, Inc.               OIG-14-04893                   03.31.2014                        0     224,931           0

 National Oceanic and Atmospheric Administration

 Silver Star Telephone               ATL-09999-14-4929                 11.27.2013                        0      34,300           0
 Company, Inc.

 Institute for Marine                   OIG-14-04932                   03.28.2014                        0    1,205,250          0
 Mammal Studies
                                                                                      Statistical Data   49




TABLE 8. AUDITS UNRESOLVED FOR MORE THAN 6 MONTHS

National Oceanic and         Republic of the Marshall Islands
Atmospheric Administration
                             OIG is waiting for a decision by the NOAA contracting officer.

Office of the Secretary	     Classified Information Policies and Practices at the
                             Department of Commerce Need Improvement

                             OIG is waiting for the Department’s action plan.
50   Office of Inspector General | Semiannual Report to Congress | March 2014




     REPORTING
     REQUIREMENTS


     The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual
     reports. The requirements are listed below and indexed to the applicable pages of this report.

      Section                      Topic                                                       Page

      4(a)(2)                      Review of Legislation and Regulations                            50

      5(a)(1)                      Significant Problems, Abuses, and Deficiencies              10-35

      5(a)(2)                      Significant Recommendations for Corrective Action           10-35

      5(a)(3)                      Prior Significant Recommendations Unimplemented                  50

      5(a)(4)                      Matters Referred to Prosecutorial Authorities                    33

      5(a)(5) and 6(b)(2)          Information or Assistance Refused                                51

      5(a)(6)                      Listing of Audit Reports                                    47-48

      5(a)(7)                      Summary of Significant Reports                              10-35

      5(a)(8)                      Audit Reports—Questioned Costs                                   43

      5(a)(9)                      Audit Reports—Funds to Be Put to Better Use                      44

      5(a)(10)                     Prior Audit Reports Unresolved                                   51

      5(a)(11)                     Significant Revised Management Decisions                         51

      5(a)(12)                     Significant Management Decisions with Which OIG Disagreed        51

      5(a)(14)                     Results of Peer Review                                           51



     SECTION 4(A)(2): REVIEW OF LEGISLATION AND REGULATIONS

     This section requires the inspector general of each agency to review existing and proposed
     legislation and regulations relating to that agency’s programs and operations. Based on this
     review, the inspector general is required to make recommendations in the semiannual report
     concerning the impact of such legislation or regulations on (1) the economy and efficiency
     of the management of programs and operations administered or financed by the agency or
     (2) the prevention and detection of fraud and abuse in those programs and operations.
     Comments concerning legislative and regulatory initiatives affecting departmental programs
     are discussed, as appropriate, in relevant sections of the report.

     SECTION 5(A)(3): PRIOR SIGNIFICANT RECOMMENDATIONS UNIMPLEMENTED

     This section requires identification of each significant recommendation described in previous
     semiannual reports for which corrective action has not been completed. Section 5(b) requires
     that the Secretary transmit to Congress statistical tables showing the number and value of audit
     reports for which no final action has been taken, plus an explanation of why recommended action
     has not occurred, except when the management decision was made within the preceding year.
     However, information on the status of any audit recommendations can be obtained through OIG
     upon request.
                                                                                      Reporting Requirements   51




SECTIONS 5(A)(5) AND 6(B)(2): INFORMATION OR ASSISTANCE REFUSED

These sections require a summary of each report to the Secretary when access, information,
or assistance has been unreasonably refused or not provided. There were no reports to the
Secretary during this semiannual period.

SECTION 5(A)(10): PRIOR AUDIT REPORTS UNRESOLVED

This section requires (1) a summary of each audit report issued before the beginning of the
reporting period for which no management decision has been made by the end of the reporting
period (including the date and title of each such report); (2) an explanation of why a decision has
not been made; and (3) a statement concerning the desired timetable for delivering a decision on
each such report. There is one NOAA report more than 6 months old for which no management
decision has been made. There is one Office of the Secretary report more than 6 months old for
which OIG is awaiting the action plan. (See table 8.)

SECTION 5(A)(11): SIGNIFICANT REVISED MANAGEMENT DECISIONS

This section requires an explanation of the reasons for any significant revision to a management
decision made during the reporting period. Department Administrative Order 213-5, Audit Resolution
and Follow-up, provides procedures for revising a management decision. For financial assistance
audits, OIG generally must concur with any decision that would change the audit resolution proposal in
response to an appeal by the recipient. There are three appeals pending at the end of this period.

SECTION 5(A)(12): SIGNIFICANT MANAGEMENT DECISIONS WITH WHICH
OIG DISAGREED

This section requires information concerning any significant management decision with which
the inspector general disagrees. Department Administrative Order 213-5 provides procedures
for elevating unresolved audit recommendations to higher levels of Department and OIG
management, including their consideration by an audit resolution council. During this period, no
audit issues were referred.

SECTION 5(A)(14): RESULTS OF PEER REVIEW

The most recent peer review of the Office of Audit and Evaluation was conducted in 2012 by the Office
of Personnel Management (OPM) Office of Inspector General. OPM OIG’s System Review Report of our
audit operations is available on our website. We received a pass rating, the highest available rating. We
are implementing all of OPM OIG’s recommendations for process and policy improvements.

The most recent peer review of the Office of Investigations was conducted in 2011 by OPM’s OIG.
We received a compliant rating. The final report of this peer review was issued on April 30, 2012.

In 2012, we conducted our latest peer review, which examined NASA OIG’s audit operations.
NASA OIG has informed us that it is implementing the recommendation we made in our review.
52   Office of Inspector General | Semiannual Report to Congress | March 2014




     ACRONYMS AND ABBREVIATIONS




     AIA                 America Invents Act                          FY        fiscal year

     BIS                 Bureau of Industry and                       GOES      Geostationary Operational
                         Security                                               Environmental Satellite

     BTOP                Broadband Technology                         GOES-R    Geostationary Operational
                         Opportunities Program                                  Environmental Satellite-R
                                                                                Series
     CBOCES              Centennial Board of
                         Cooperative Educational                      HCHB      Herbert C. Hoover Building
                         Services
                                                                      IPERA     Improper Payments
     CCI                 Comprehensive Community                                Elimination and Recovery
                         Infrastructure                                         Act of 2010

     CIRT                Computer Incident Response                   IT        information technology
                         Team
                                                                      ITA       International Trade
     CAM                 Commerce Acquisition Manual                            Administration

     DOC CIRT            Department of Commerce                       JPSS      Joint Polar Satellite System
                         Computer Incident
                         Response Team                                LH        labor hour

     DOJ                 Department of Justice                        MDMR      State of Mississippi’s
                                                                                Department of Marine
     EDA                 Economic Development                                   Resources
                         Administration
                                                                      MHz       Megahertz
     EDRP                Emergency Disaster Relief
                         Program                                      MEP       Manufacturing Extension
                                                                                Partnership
     ENA                 EAGLE-Net Alliance
                                                                      NPSBN     Nationwide Public Safety
     ESA                 Economics and Statistics                               Broadband Network
                         Administration
                                                                      NEI       National Export Initiative
     FAR                 Federal Acquisition Regulation
                                                                      NIST      National Institute of Standards
     FFP                 firm fixed price                                       and Technology

     FirstNet            First Responder Network                      NOAA      National Oceanic and
                         Authority                                              Atmospheric Administration

     FISMA               Federal Information Security                 NTIA      National Telecommunications
                         Management Act of 2002                                 and Information Administration

     FTR                 Federal Travel Regulation                    NWS       National Weather Service
                                                             Acronyms and Abbreviations   53




OIG     Office of Inspector General    RLF         Revolving Loan Fund

OMB     Office of Management           SBA         Sustainable Broadband
        and Budget                                 Adoption

OPM     Office of Personnel            SCBA        Second Change Body
        Management                                 Armor, Inc.

OSC     Office of Special Counsel      SOP         standard operating procedure

OSEEP   Office of Sustainable Energy   Suomi NPP   Suomi National Polar-orbiting
        and Environmental Programs                 Partnership

PCC     Public Computer Centers        T&M         time-and-materials

RCE     request for continued          TIC         Trusted Internet Connections
        examination
                                       USPTO       U.S. Patent and
R&T     research and testing                       Trademark Office
>> Call: 800.1'21'.5197
>> Email: holline@oig.doc.gov
>> Or visit our website al www.oig.doc.gov
U.S. Department of Commerce
Office of Inspector General
1401 Constitution Avenue, NW
Washington, DC 20230

www.oig.doc.gov




                         OUR MISSION

                         To improve the programs and operations of the
                         Department of Commerce through independent
                         and objective oversight.
